o

*

No.

2L 111

AH?

IN THE
SUPREME COURT OF THE UNITED STATES
CHESTER LEE RENEAU - PETITIONER
vs.
MARY CARDINAS; DOCTOR LOUIS CABILING ■ RESPONDENTS
ON PETITION FORA WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Chester Lee Reneau
Crowley County Correctional Facility
P.O. Box 100

wljbq)
JUN 23 2021

2

r. OFFICE OF THE CLERK ■

giiPRFMF nnIIBT-JI ft <-

Olney Springs, CO 81062

RECEIVED
SEP - 8 2021
©FFJCE OF THE CLERK
SUPREME COURT. H R

RECEIVED
l

JUN 3 0 2021
•FFICE OF THE CLERK
SUPREME COURT. U.S.

• I

QUESTIONS PRESENTED
Can prison doctors violate the Eighth Amendment by exposing prisoner’s to the
“unnecessary and wanton” infliction of pain? And, does the Constitution permit prison
doctors to act with deliberate indifference to a prisoner's serious medical needs by
providing treatment so cursory as to amount to no treatment at all? Also, did the lower
courts abuse their discretion by denying Petitioner's Seventh Amendment right to trial by
jury, by resolving disputed questions of material fact in order to award Dr. Cabiling
summary judgment.

PARTIES AND RELATED CASES
The petitioner is Chester Lee Reneau, a prisoner at Crowley County Correctional
Facility in Olney Springs, Colorado. As Reneau is not challenging the Court of Appeals
decision against Nurse Mary Cardinas in this action, the respondent in the case at bar is
Doctor Louis Cabiling, a medical provider at Crowley County Correctional Facility. This
case is docketed as Case No. 1- 17-CV-02595-PAB*SKC in the United States District
Court for the District of Colorado, and Case No. 20-1220 in the United States Court of
Appeals for the Tenth Circuit.

2

* I

Table Of Contents
Question
Presented

2

Parties and Related Cases

2

Table of Authorities

4

Decisions Below.

5

Jurisdiction

5

Constitutional and Statutory Provisions Involved

5,6
6

Statement of the Case
Basis for Federal Jurisdiction

6-7

Reasons for Granting the Writ

7-20

A. Conflicts with Decisions of Other Courts
B. Importance of the Question Presented
C. Denial of Seventh Amendment Right to Trial by Jury.

7-8
8-18
18-20
20

Conclusion
Appendix
Decision of the United States Court of Appeals

Appendix A (A1-A14)

Order of the United States District Court

Appendix B (B1-B14)

Order of the United States Court of Appeals Denying Rehearing

Appendix C (Cl)
Appendix D (D1-D21)

Appellant's Opening Brief.

3

Table of Authorities
Page
Ancata v. Prison Health Services, Inc., 769 F.2d 700, 704 (llth Cir. 1985)

8,13,17

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).............................

19

Benjamin v. Schwartz, 299 F. Supp. 2D 196, 201 (S.D.N.Y. 2004)...............

11,12,13

Brown v. Briick, 1996 U.S. Dist. LEXIS 13695, *10........................................

19

Brown v. Hughes, 894 F.2d 1533, 1537 (llth Cir. 1990).................................

7

Collignon v. Milwaukee County, 163 F.3d 982, 989 (7th Cir. 1998).............

15

Estelle v. Gamble, 429 U.S. 97, 107 (1976)........................................................

13

Frohmader v. Wayne, 958 F.2d 1024, 1028 (10th Cir. 1992)..........................

8,9,20

Greeno v. Daley, 414 F.3d 645, 653 (7th Cir. 2005)..........................................

16

Greeno v. Daley, 414 F.3d at 654..........................................................................

16

Hayes v. Snyder, 546 F.3d 516, 526 (7th Cir. 2008).........................................

7

Hayes v. Snyder, 546 F.3d at 523.........................................................................

14,15

Hemmings v. Gorczyk, 134 F.3d 104, 109 (2d Cir. 1998)................................

8,16

Kikumura v. Osagie, 461 F.3d 1269, 1295 (10th Cir. 2006)...........................

10,18,20

Ledoux v. Davies, 961 F.2d 1536, 1537 (10th Cir. 1992).................................

13

Mata v. Saiz, 427 F.3d 745, 752 (10th Cir. 2005)..............................................

12

Oxendine v. Kaplan, 241 F.3d 1272, 1276 (10th Cir. 2001)............................

14,16

Oxendine v. Kaplan, 241 F.3d at 1279................................................................

11

Petrichko v. Kurtz, 117 F. Supp. 2D 467, 471 (E.D. Pa. 2000)......................

7

Ramos v. Lamm, 639 F.2d 559, 575 (10th Cir. 1980).......................................

7,9,20

Ramos v. Lamm, 639 F.2d at 576.........................................................................

13

Self v. Crum, 439 F.3d 1227, 1232 (10th Cir. 2006).........................................

16,18

Smallwood v. Renfro, 708 F. Supp. 182, 187 (N.D. Ill. 1989)........................

19

Sulton v. Wright, 265 F. Supp. 2D 292, 300 (S.D.N.Y. 2003).........................

8,17

Whitley v. Albers, 475 U.S. 312, 319 (1986)......................................................

12

4

DECISIONS BELOW
As the petitioner is a pro se inmate without outside resources and in a private
prison without access to a real time law computer, Petitioner has no knowledge of
whether or not the decisions of the lower courts have been published. The decision of the
United States Court of Appeals for the Tenth Circuit is attached to this petition as
Appendix A (APA14). The Order of the United States District Court for the District of
Colorado is attached as Appendix B to this petition. (B1-B14).
JURISDICTION
The judgment for the United States Court of Appeals for the Tenth Circuit was
entered on March 31, 2021. An order denying a petition for rehearing was entered on
April 20, 2021 and a copy of that order is attached as Appendix C to this petition (C*l).
Jurisdiction is conferred by 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves Amendment VIII to the United States Constitution, which
providesExcessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
The Amendment is enforced by Title 42, Section 1983, United States Code:
Every person who, under color of any statute, ordinance, regulation, custom, or

5

usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or immunities secured by the Constitution
and laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any action brought against a judicial officer
for an act or omission taken in such officer's judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the District of Columbia.
STATEMENT OF THE CASE
The petitioner's complaint alleged that respondent, Doctor Louis Cabiling, failed to
respond reasonably to Petitioner's serious medical needs by denying Petitioner adequate
medical care for his torn rotator cuff. Respondent gave the petitioner one pain shot for a
torn rotator cuff injury which required three screws and sutures in Petitioner's shoulder
muscles in order to repair the damage. Thereby, exposing the petitioner to four years of
unnecessary pain and loss of function in Petitioner's left arm in violation of the
petitioner's Eighth Amendment rights.
The district court granted summary judgment to Respondent on the misled belief
that Petitioner's claim against Respondent was just a mere disagreement with the
respondent's prescribed course of treatment, and the fact that the respondent gave the
petitioner some form of treatment. The court of appeals affirmed the grant of summary
judgment for the reasons stated by the district court.
BASIS FOR FEDERAL JURISDICTION
6

This case raises a question of an inmates right under the Eighth Amendment to
the United States Constitution to receive adequate medical care for serious medical
needs. The district court had jurisdiction under the general federal question jurisdiction
conferred by 28 U.S.C. 1331.
REASONS FOR GRANTING THE WRIT
A. Conflicts with Decisions of Other Courts
The holding of the courts below that Respondent did not act with deliberate
indifference to the petitioner's torn rotator cuff by denying Petitioner access to an
orthopedic doctor capable of evaluating the need for surgery on the petitioner's torn
rotator cuff is directly contrary to the holding of three federal circuits. See Hayes v.
Snyder, 546 F.3d 516, 526 (7th Cir. 2008)(The fact that a general practitioner is unable to
identify or document the cause of a patient's pain does not strike us as a reason to reject a
request to see a specialist. But the very reason why a specialist would be called in is that
a generalist is unable to identify the cause of a particular ailment); Petrichko v. Kurtz,
117 F. Supp. 2D 467, 471 (E.D. Pa. 2000) (Deliberate indifference may be inferred when a
prison official delays necessary medical treatment for a non-medical reason; or prevents a
prisoner from receiving medical treatment that was needed); Brown v. Hughes, 894 F.2d
1533, 1537 (llth Cir. 1990) (Deliberate indifference to a prisoner's serious medical needs
violates the Eighth Amendment because denying or delaying medical treatment is
tantamount to “unnecessary and wanton infliction of pain”). In addition, it even
contradicts Tenth Circuit precedent which states that deliberate indifference to serious
medical needs is shown when prison officials deny an inmate access to medical personnel
capable of evaluating thee need for treatment. Ramos v. Lamm, 639 F.2d 559, 575 (10th
7

Cir. 1980).
In addition, the holding of the courts below that respondent Cabiling did not act
with deliberate indifference to the petitioner’s injury merely because Respondent
provided Petitioner with some form of treatment, despite the fact that it did not repair
the damage to the petitioner's rotator cuff; is directly contrary to the holding of three
federal circuits. See Sulton v. Wright, 265 F. Supp. 2D 292, 300 (S.D.N.Y. 2003) (Even if
an inmate receives “extensive” medical care, a claim is stated if, as here, the gravamen of
his problem is not addressed); Hemmings v. Gorczyk, 134 F.3d 104, 109 (2d Cir. 1998)
(Receiving some medical attention even with two x-rays does not constitute adequate
medical care or a lack of deliberate indifference); (Ancata v. Prison Health Services, Inc.,
769 F.2d 700, 704 (11th Cir. 1985) (Although the plaintiff has been provided with aspirin;
i

this may not constitute adequate medical care);
Furthermore, by deciding that the act of Respondent Cabiling giving the petitioner
nothing more than a pain shot for a medical condition which required arthroscopic
surgery constitutes adequate medical care, instead of treatment so cursory as to amount
to no treatment at all. The lower courts, contrary to the holding in Frohmader v. Wayne,
resolved a disputed question of material fact in order to grant Respondent summary
judgment thereby abusing their discretion. See Frohmader v. Wayne, 958 F.2d 1024, 1028
(10th Cir. 1992) (Courts may not resolve disputed questions of material fact in order to
grant summary judgment).
B. Importance of the Questions Presented
This case presents the fundamental question, does the Constitution require that
prison doctors provide inmates with reasonably adequate medical care for their serious
8

i

medical needs? Or does the Constitution permit prison doctors to violate the Eighth
Amendment to the U.S. Constitution by intentionally exposing inmates to the
“unnecessary and wanton” infliction of pain by denying them access to medical personnel
capable of evaluating the need for specialized medical treatment? Does the Constitution
require that prison doctors provide inmates with reasonably adequate medical care for
their serious medical needs? Or does the Constitution permit prison doctors to be
deliberately indifferent to an inmates serious medical needs by providing them with
treatment so cursory as to amount to no treatment at all?
This case also presents the fundamental question, does the act of the lower courts
resolving disputed questions of material fact in order to award respondent Cabiling
summary judgment deprive Petitioner of his right to trial by jury in a civil case in
violation of the Seventh Amendment to the Constitution of the United States?
The questions presented are of great public importance because it affects the
medical care provided to inmates of the prison systems in all 50 states, the District of
Columbia, and hundreds of city and county jails. It also affects an inmates Seventh
Amendment right to trial by jury in a civil action under 42 U.S.C. § 1983. In view of the
large amount of litigation over prison medical care claims, guidance on these questions
are also of great importance to prisoners, because it affects their ability to receive
reasonably adequate medical care for their serious medical needs, thereby alleviating
years of unnecessary pain and suffering.
The importance of these issues are enhanced by the fact that the lower courts not
only made a ruling that conflicts with the holdings in other federal circuits. But, they
also made a decision that is contrary to the holdings in Ramos v. Lamm, 639 F.2d 559
9

575; Kikumura v. Osagie, 461 F.3d 1269, 12951 and Frohmader v. Wayne, 958 F.2d 1024,
1028, which are controlling Tenth Circuit precedent on these very same issues.
The U.S. District Court for the District of Colorado erroneously held that “The
evidence in this case, and plaintiffs only allegation, is that Dr. Cabiling did not order an
MRI when plaintiff requested one.” See Appendix B (B-12,11. 13-15). This is not true.
While Petitioner does allege that Respondent should have done an MRI in order to
perform a proper examination of the petitioner’s rotator cuff tear because it did not show
up on x-ray. This is not the basis of Petitioner's claim against Respondent Cabiling. The
basis of the petitioner’s claim against the respondent is that Respondent's refusal to allow
Petitioner to be evaluated by an orthopedic doctor capable of determining whether or not
the petitioner needed surgery for his torn rotator cuff constitutes deliberate indifference
to Petitioner's serious medical needs. See Petitioner's Appellate Brief attached as
Appendix D (D12-14,11. 3-19). Furthermore, Plaintiffs Exhibits 38A and 38B; Appendix
(D-19) and (D-20) are evidence which proves Petitioner's claim that the respondent
prevented the petitioner from receiving medically necessary surgery sooner by denying
Petitioner access to an orthopedic doctor capable of evaluating the need for surgery on the
Petitioner's rotator cuff.
Petitioner also claims that Respondent acted with deliberate indifference to
Petitioner's injury by giving the petitioner a pain shot for a condition which required
arthroscopic surgery thereby providing treatment so grossly inadequate and cursory as to
amount to no treatment at all. See Appendix D (D12-14, 11. 3-19); see also Kikumura v.
Osagie, 461 F.3d 1269, 1295 (10th Cir. 2006) (If the treatment provided is so cursory that
it amounts to no treatment at all then it supports a claim of deliberate indifference).
10

Petitioner also claims that Respondent acted with deliberate indifference to the
petitioner's serious medical needs by denying the petitioner adequate and timely medical
care for his torn rotator cuff. See Appendix D (D12-D13,11. 3-2). This amounts to more
than a mere disagreement over a prescribed course of treatment. Oxendine v. Kaplan, 241
F.3d 1272, 1279 (10th Cir. 2001) (A prisoner's claim that he has been denied adequate and
timely medical assistance does not reflect “ mere disagreement with his medical
treatment”).
In the case at bar, on March 8, 2017 the petitioner fell from the ladder to his top
bunk, fracturing his leg and tearing his bicep tendon and rotator cuff. See highlighted
portion of Plaintiffs Exhibit 38A and 38B attached as Appendix D to this petition (D19D20). Petitioner was examined by respondent Cabiling on March 20, 2017. During this
examination Petitioner informed the respondent that the petitioner's rotator cuff was
torn and that Petitioner would like to be evaluated by an orthopedic doctor to see if
surgery was necessary to repair the damage to the petitioner's rotator cuff. Instead of
taking Petitioner's statement that his rotator cuff was torn seriously and referring the
petitioner to an orthopedic doctor to see if surgery was necessary.
Respondent Cabiling ignored the petitioner's request to be evaluated by an
orthopedic doctor, told Petitioner that he would give the petitioner a cortisone shot for
pain and nothing more; and then mocked Petitioner's statement that his rotator cuff was
torn by stating “CLAIMS HE HAS ROTATOR CUFF TEAR” in his examination notes.
See Plaintiffs Exhibit 25 attached as Appendix D to this petition (D18). As a physician
Respondent would have known that Petitioner's torn shoulder tendons would most likely
require surgery, and that extended delay in repairing the petitioner's tendons would
11

lessen Petitioner's chance for recovery. See Benjamin v. Schwartz, 299 F. Supp. 2D 196,
201 (S.D.N.Y. 2004)
Therefore, any reasonable fact finder can draw the inference that Respondent had
subjective knowledge of the fact that there was a substantial risk of the petitioner
suffering unnecessary pain caused by the delay in receiving surgery from the very fact
that Respondent Cabiling even admits in his examination notes that Petitioner “CLAIMS
HE HAS ROTATOR CUFF TEAR.” And the respondent's intentional refusal to gain full
knowledge of the severity of the petitioner's rotator cuff tear by refusing to have
Petitioner examined by an orthopedic doctor capable of evaluating the severity of the
petitioner's injury cannot relieve Respondent from liability. Mata v. Saiz, 427 F.3d 745
752 (10th Cir. 2005) (“An official would not escape liability if the evidence showed that he
he refused to verify underlying facts that he strongly suspected to be true, or declined to
confirm inferences of risk that he strongly suspected to exist.”
Plaintiffs Exhibit 25 is inculpatory evidence in the record that clearly establishes
that respondent Cabiling had subjective knowledge of the fact that there was a
substantial likelihood that the petitioner would suffer substantial pain if Respondent did
not refer Petitioner to an orthopedic doctor capable of evaluating the need for surgery on
the petitioner's torn rotator cuff. Furthermore, an express intent to inflict unnecessary
pain is not required to state a claim. Whitley v. Albers, 475 U.S. 312, 319 (1986). Also, the
lower courts erroneously decided that Respondent Cabiling did not act with deliberate
indifference to petitioner's injury by denying Petitioner access to an orthopedic doctor
capable of evaluating the need for surgery on the petitioner's rotator cuff tear, thereby
causing a four year delay in Petitioner receiving medically necessary surgery. This is
12

contrary to the holding in Benjamin v. Schwartz in which the Court ruled that a two year
delay in arranging for the plaintiff to receive surgery on his torn rotator cuff constituted
deliberate indifference. See Benjamin v. Schwartz, 299 F. Supp. 2D 196, 201 (S.D.N.Y.
2004).
In violation of an inmates Eighth Amendment right to be free from the
“unnecessary and wanton” infliction of pain, courts have erroneously held that the
decision to refer an inmate to a specialist, is a matter of medical judgment. Estelle v.
Gamble, 429 U.S. 97, 107 (1976); Ledoux v. Davies, 961 F.2d 1536, 1537 (10th Cir. 1992).
This Honorable Court should only apply that ruling in cases where surgery is not
medically necessary. When surgery is medically necessary to properly and adequately
treat a prisoner's serious medical need,and there is no medical reason to delay medically
necessary surgery. Then this Honorable Court should apply the rule, that when necessary
medical treatment has been delayed for non-medical reasons a case of deliberate
indifference has been made out; otherwise this Honorable Court would be guilty of aiding
prison doctors in exposing inmates to the “unnecessary and wanton” infliction of pain.
See Ancata v. Prison Health Services, Inc., 769 F.2d 700, 704 (llth Cir. 1985) (When
necessary medical treatment....). Because there was no medical justification in
Respondent's notes for denying the petitioner access to an orthopedic surgeon.
In order to meet minimally acceptable standards of health care, there must be at
least 4 hours of on-site coverage every other week from an orthopedic surgeon. Ramos v.
Lamm, 639 F.2d 559, 576 (10th Cir. 1980). Accordingly, for the petitioner to properly set
forth an Eighth Amendment claim on which relief may be granted, he must set forth facts
demonstrating that his alleged medical need, in this case the need for an outside medical
13

specialist, was ’sufficiently serious’ to meet the objective element of the deliberate
indifference test, and that the respondent's delay in meeting that need caused him
“substantial harm.” See Oxendine v. Kaplan, 241 F.3d 1272, 1276 (10th Cir. 2001).
In the case at bar Petitioner was physically handicapped due to the fact that he
only had partial function of his left arm, and was in constant severe pain for nearly four
years prior to surgery as a result of Respondent Cabiling denying him access to an
orthopedic doctor capable of evaluating the need for surgery on the petitioner's torn
rotator cuff. The only reason that the petitioner received surgery for his injury is because
he purposely got enough COPD violations to get moved back to a State ran correctional
facility where the doctor's performed a proper medical examination on Petitioner's rotator
cuff; which revealed that the petitioner needed surgery to repair the damage to his
shoulder. See Plaintiffs Exhibit 30 attached as Appendix D to this petition (D*2l); see
also (D19-20). If Petitioner did not receive surgery for his rotator cuff tear he would have
been unable to obtain gainful employment upon his release from prison due to the loss of
function in his left arm. Therefore, Petitioner meets the substantial harm requirement.
The lower court erroneously ruled that the record contains no evidence that Dr.
Cabiling was unable to treat Mr. Reneau's shoulder or that the injury to his shoulder was
so obvious that even a layman would recognize a rotator cuff tear. Appendix (A-13,11. 9*
11). This is not true. Plaintiffs Exhibits 38A and 38B (D19-D20) prove that Petitioner had
to be sent to St. Thomas More Hospital in Canon City, CO to be operated on by, Dr. Keith
Peter Minihane on February 4, 2021. If the respondent were able to treat the petitioner’s
shoulder then Petitioner would have been provided with Arthoscopic surgery by
Respondent, instead of having to leave the facility to be treated. Furthermore, since the
14

respondent is a physician it is irrelevant whether or not a layman would recognize a
rotator cuff tear. See Hayes v. Snyder, 546 F.3d 516, 523 (7th Cir. 2008) (For purposes of a
prisoner's deliberate indifference claim regarding medical needs, the Eighth Amendments
proscription against cruel and unusual punishment is not triggered only by conditions
that a layperson would be able to diagnose and treat, especially when the defendant is
not a layperson but is instead a physician).
Additionally, since the decision of whether or not to perform surgery on a torn
rotator cuff falls within the scope of the duties of an orthopedic doctor and not those of a
general practitioner. And since the respondent is a general practitioner and not an
orthopedic doctor, Respondent's decision not to have surgery done on Petitioner's rotator
cuff is not protected under the professional judgment standard as surgery is not the
respondent's area of medical expertise. See Collignon v. Milwaukee County, 163 F.3d 982,
989 (7th Cir. 1998) (The professional judgment standard only applies to decisions made
by professionals such as physicians, psychiatrists, and nurses acting within their area of
professional expertise).
Therefore, since Plaintiffs Exhibits 38A and 38B , (D-19) and (D-20)prove that the
petitioner needed to have his rotator cuff muscles sewn together and three screws placed
in his shoulder to repair the damage to his shoulder. Any reasonable fact finder can draw
the inference that Petitioner's need for an outside medical specialist was 'sufficiently
serious'. And since there is no orthopedic surgeon that visits Crowley County Correctional
Facility every other week as required in Ramos, supra. Nor is the respondent an
orthopedic surgeon. Since Respondent knows he is not medically trained to perform
rotator cuff surgery on the petitioner; the lower courts should have ruled that Respondent
15

acted with deliberate indifference to the petitioner's torn rotator cuff by unnecessarily
refusing to refer Petitioner to an orthopedic surgeon. See Self v. Crum, 439 F.3d 1227
1232 (10th Cir. 2006) (A claim is actionable where the need for additional treatment and
referral to a medical specialist is obvious. One context is when a medical professional
recognizes an inability to treat the patient due to the seriousness of the condition and his
corresponding lack of expertise but nevertheless declines referral).
The lower courts erroneously ruled that Respondent Cabiling did not act with
deliberate indifference to the petitioner's rotator cuff injury merely because the
respondent gave Petitioner some form of treatment, with two x-rays. Appendix (A13,11.
11-12); (B*12,11. 13-17). However, receiving some medical attention even with two x-rays
does not constitute adequate medical care or a lack of deliberate indifference. Hemmings
v. Gorczyk, 134 F.3d 104, 109 (2d Cir. 1998). Also, Petitioner is not required to show that
the respondent literally ignored his request for medical care. Greeno v. Daley, 414 F.3d
645, 653 (7th Cir. 2005) (To prevail on an Eighth Amendment claim “a prisoner is not
required to show that he was literally ignored).
The lower courts missed this critical distinction, concluding that the petitioner's
claim failed because “his complaint was not ignored.” Likewise, the lower courts erred by
concluding that petitioner's claim fails because he received some treatment overlooks the
possibility that the treatment Petitioner did receive was “so blatantly inappropriate as to
evidence intentional mistreatment likely to seriously aggravate” his condition. Greeno,
414 F.3d at 654. Significantly, the deliberate indifference standard applies to the
decisions of prison medical personnel as to what medical care a prisoner requires.
Collignon, 163 F.3d at 989. Prisoner's have an Eighth Amendment right to adequate
16

medical treatment. Oxendine, 241 F.3d atl276. Giving a prisoner pain medication alone
for a condition that requires surgery does not by any means constitute adequate medical
care. See Ancata v. Prison Health Services, Inc., 769 F.2d 700, 704 (llth Cir.1985)
(Although the plaintiff has been provided with aspirin, this may not constitute adequate
medical care).
Given knowledge of the fact that the cortisone shot Petitioner received from
Respondent Cabiling only temporarily eased the petitioner’s pain, but did nothing to
repair the damage to Petitioner's rotator cuff or permanently ease the petitioner’s pain.
Any reasonable fact finder can also draw the inference that the respondent chose to
provide Petitioner with an “easier and less efficacious treatment” than surgery.
Therefore, the lower courts should have also held that Respondent acted with deliberate
indifference to the petitioner's injury by providing him with an “easier and less efficacious
treatment.” Id. (If “deliberate indifference caused an easier and less efficacious
treatment” to be provided, the defendants have violated the plaintiffs Eighth
Amendment rights by failing to provide adequate medical care).
Additionally, since the gravamen of the petitioner's medical problem was a rotator
cuff tear, and the cortisone shot given to Petitioner by the respondent did nothing to
repair this tear the lower courts in this case should have held that Respondent acted with
deliberate indifference to the petitioner's serious medical needs by failing to address the
gravamen of Petitioner's medical problem. See Sulton v. Wright, 265 F. Supp. 2D 292, 300
(S.D.N.Y. 2003) (Even if an inmate receives “extensive” medical care, a claim is stated if,
as here, the gravamen of his problem is not addressed).
And last, but not least, since Plaintiffs Exhibits 38A and 38B; (D-19) (D-20) and
17

prove that the petitioner required the comprehensive surgical procedure he received in
order to repair the damage to his shoulder any reasonable fact finder can easily draw the
inference that the treatment provided to Petitioner by Respondent Cabiling was so
cursory as to amount to no treatment at all. Therefore, the lower courts should also have
held that the respondent acted with deliberate indifference to the petitioner's injury by
providing Petitioner with a form of treatment so cursory and inadequate as to amount to
no treatment at all. Kikumura v. Osagie, 461 F.3d 1269, 1295 (10th Cir. 2006) (If the
treatment provided is so cursory that it amounts to no treatment at all then it supports a
claim of deliberate indifference).
Also the lower court cites Self v. Crum at 1235 stating “Summary judgment
requires more than mere speculation. It requires some evidence, either direct or
circumstantial, that the practitioner knew about and consciously disregarded the risk.
Appendix (A-13,11. 16'18). However, Respondent clearly acknowledges and admits in his
examination notes on March 20, 2017 “CLAIMS HE HAS ROTATOR CUFF TEAR.”
Appendix (D-18). This is clearly direct evidence that the respondent knew about the
petitioner's rotator cuff tear and acted with deliberate indifference to the severity of
Petitioner's injury by refusing to have the petitioner examined by an orthopedic doctor
capable of evaluating the need for surgery. Therefore, it was clearly an abuse of discretion
for the lower court to rule that there was no evidence to prove Respondent knew about
the petitioner's rotator cuff tear.
C. Denial of Seventh Amendment Right to Trial by Jury
The lower courts erroneously held that the act of Respondent denying the
petitioner access to medical personnel capable of evaluating the need for medically
18

necessary surgery on Petitioner's did not constitute deliberate indifference. Appendix
(Bll-12, 11. 22-l).The lower courts also erroneously held that the act of Respondent
Cabiling giving the respondent a pain shot for a condition that required arthroscopic
surgery constitutes adequate medical care. Appendix (A-13, 11. 11-12); (B-12,11. 13-17).
However, the Seventh Amendment to the United States Constitution preserves the right
to trial by jury in a civil action where the value in controversy exceeds twenty dollars.
The petitioner even demanded a jury trial in the caption of his Complaint in this instant
case.
As to the question of does the act of Respondent Cabiling giving the petitioner a
shot for a condition which required arthroscopic surgery constitute adequate medical care
for Petitioner's condition? Or does it constitute medical care so cursory as to amount to no
treatment at all? This is an issue of material fact that should have been decided by a jury
after hearing expert medical testimony at trial. This issue should not have been decided
by either of the lower courts. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986) (the weighing of evidence, and the drawing of legitimate inferences from the facts
are jury functions, not those of a judge); see also Smallwood v. Renfro, 708 F. Supp.
182,187 (N.D.I11. 1989) (Because a factual dispute exists as to the seriousness of the
injury, a jury should decide the issue).
Additionally, as to whether or not the respondent denying Petitioner medically
necessary surgery through the act of denying him access to an orthopedic doctor capable
of evaluating the need for surgery constitutes deliberate indifference is another issue of
material fact that should have been decided by a jury and not the lower courts since the
petitioner demanded a jury trial. Brown v. Briick, 1996 U.S. Dist. LEXIS 13695, *10
19

(Whether the acts of each individual defendant in fact constitute deliberate indifference is
a question for the jury).
By ruling that the act of the respondent giving the petitioner a shot for a condition
which required surgery did not constitute deliberate indifference. And by ruling that the
act of Respondent denying Petitioner access to medical personnel capable of evaluating
the need for medically necessary surgery does not constitute deliberate indifference. The
lower courts resolved disputed questions of material fact in order to grant Respondent
Cabiling summary judgment, thereby abusing their discretion, and depriving the
petitioner of his Seventh Amendment right to trial by jury. See Frohmader v. Wayne, 958
F.2d 1024, 1028 (10th Cir. 1992) (Courts may not resolve disputed questions of material
fact in order to grant summary judgment).
Therefore, this Honorable Court should correct the erroneous rulings of the lower
courts and make it clear that denying an inmate access to medical personnel capable of
evaluating the need for medically necessary surgical treatment constitutes deliberate
indifference. Ramos v. Lamm, 639 F.2d 559, 575 (10th Cir. 1980) (Deliberate indifference
to serious medical needs is shown when prison officials deny an inmate access to medical
personnel capable of evaluating the need for treatment). This Honorable Court should
also make it clear that providing an inmate with treatment so cursory as to amount to no
treatment at all constitutes deliberate indifference to serious medical needs. Kikumura v.
Osagie, 461 F.3d 1269, 1295 (10th Cir. 2006) (If the treatment provided is so cursory that
it amounts to no treatment at all then it supports a claim of deliberate indifference). And
last but not least, this Honorable Court should also make it clear that courts may not
resolve disputed questions of material fact in order to grant summary judgment.
20

>

Frohmader v. Wayne, 958 F.2d 1024, 1028 (10th Cir. 1992).

CONCLUSION
WHEREBY, for the above stated reasons, the Petition for a Writ of Certiorari
should be granted in this case.
Respectfully submitted this

1

4
Chester Lee Reneau #156770
Crowley County Correctional Facility
P.O. Box 100
Olney Springs, CO 81062
CERTIFICATE OF SERVICE
I, the petitioner, Chester Lee Reneau, certify under penalty of perjury that on
June 22, 2021 pursuant to Supreme Court Rule 29 I placed a true and correct copy of the
foregoing MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI in the outgoing facility legal mail system at Crowley
County Correctional Facility to be mailed via U.S. Mail System, postage prepaid to the
following^
Supreme Court of the United States
1 1st St., NE
Washington, D.C. 20543
Edmund M. Kennedy
1001 Seventeenth Street, Suite 300
Denver, CO 80202

21

